                           This issue of our Semiannual Report to the Congress features the Library
                           of Congress’ John Adams Building. The building is named in honor of the
                           second United States president who in 1800 approved the law establishing the
                           Library of Congress. Built in the late 1930s, the structure was intended to
                           provide functional and efficient book stacks “encircled with work spaces.”
                           Opened to the public in 1939, the “Annex Building” was renamed the “Thomas
                           Jefferson Building” in 1976 and received its current designation in 1980.

                           The Adams’ classical style has been widely admired for decorative elements
                           inspired by the 1925 Paris Exposition des Arts Décoratifs and the use of such
materials as acoustical block, formica, and glass tubing. Of special note are the decorative features of
the building, including metalwork in the first floor lobbies and corridors and in the fifth floor lobbies and
reading rooms.

The dignified exterior is faced with white Georgia marble and pink North Carolina granite. Inside, the
building contains 12 tiers of stacks, each providing about 13 acres of shelf space, in all, spanning 180 miles
of shelving and holding 10 million volumes. Ezra Winter’s murals in the North Reading Room on the
fifth floor illustrate the characters in Geoffrey Chaucer’s Canterbury Tales. One of Winter’s murals in the
South Reading Room contains themes drawn from Thomas Jefferson’s writings reflecting his thoughts on
freedom, labor, education, human rights, and government. Another Winter mural in the South Reading
Room, a portrait of Thomas Jefferson at his residence in Monticello, is located in the lunette above the
reference desk and bears the inscription “This Room is Dedicated to Thomas Jefferson.”




For more information from John Y. Cole’s On These Walls (1994), please visit http://www.loc.gov/loc/
walls/adams.html. All photographs in this publication are of the John Adams Building.




Cover: The John Adams Building, Library of Congress

Photographs by Tara Logan
 October 31, 2007


A Message From the Inspector General

I am pleased to present our Semiannual Report to the Congress for the period ended September 30, 2007.


In the last six months we prepared reports on the management of facility, design & construction operations;
contracting operations; the National Digital Information Infrastructure and Preservation Program; travel
operations; the Jakarta Field Office; and the Library’s workforce diversity program. We provided suggestions
on the Library’s new Strategic Plan and several of the Library’s regulations, and followed up on our March 2004
audit of reading room utilization. We also issued a report on the 2006 financial statements of the Open World
Leadership Center, a separate legislative branch agency housed at the Library of Congress. In addition, we conducted
investigations on topics such as physical security, credit card fraud, handling hazardous materials, and missing collections
items.


Finally, in the last six months, we commented on H.R. 928 and two pending Senate bills that would amend the Inspector
General Act of 1978. Additionally, we submitted a statement to the Committee on House Administration for a hearing on
merging the Library’s police with the U.S. Capitol Police.


In the next six months, we will report on in-progress reviews of the Library’s disbursing operations, additional contracting
activities, mail services, copyright reengineering, the Raiser’s Edge system, cost/benefit and alternatives analyses for the
proposed logistics center, the Library’s and Madison Council’s FY 2007 ﬁnancial statements audits, and other topics.


We are pleased by the efforts of the Library’s new Chief Operating Officer to improve Library management. Initiatives
such as the new “Dashboard,” highlighting key performance metrics incorporated into the Library’s Annual Planning and
Program Performance process, should improve infrastructure accountability by providing critical information about the
status of operations. Quarterly status meetings on resource issues and inspector general recommendations should result in
timely progress in further improving Library operations. We are also encouraged by the Chief Operating Officer’s request
during the period that we review the Office of Workforce Diversity. The Office of the Inspector General should be viewed
as a resource and collaborative partner in evaluating and improving the Library’s economy, efficiency, and effectiveness.


We appreciate the cooperative spirit of Library managers and staff during our reviews.
            Table of Contents


   Introduction................................................................................................................................................................          1

   Audits.............................................................................................................................................................................   3
            Facility Design & Construction........................................................................................................................                       3
        The Library’s Travel Program............................................................................................................................                         4
        National Digital Information Infrastructure and Preservation Program....................................................                                                         5
        Office of Contracts.............................................................................................................................................                 6
        Library Services Reading Room Space Allocations........................................................................................                                          7
        Open World Leadership Center ........................................................................................................................                            8
   Investigations...............................................................................................................................................................         11
        Significant Criminal and Administrative Investigations.................................................................................                                          12
            Follow-up on Investigative Issues from Prior Reporting Periods................................................................ 13
   Unimplemented Recommendations...........................................................................................................................                              15

   Implemented Recommendations................................................................................................................................                           20

   Funds Questioned or Put to Better Use...................................................................................................................                              21

   Instances Where Information or Assistance Requests Were Refused...............................................................                                                        23

   Status of Recommendations Without Management Decisions..........................................................................                                                      23

   Significant Revised Management Decisions...........................................................................................................                                   23

   Significant Management Decisions With Which OIG Disagrees........................................................................                                                     23

   Follow-up on Prior Period Recommendations .....................................................................................................                                       23

   Other Activities............................................................................................................................................................
                                                                                                                                                         24
            Comments on the Library’s FY 2008-2013 Strategic Plan............................................................................ 24
            Review of the Office of Workforce Diversity................................................................................................. 24
        Inspection of the Jakarta Overseas Office....................................................................................................... 25
   Review of Legislation and Regulations................................................................................................................... 27
        Inspector General’s Statement for the House Police Merger Hearing......................................................... 27
            Proposed IG Act Amendments......................................................................................................................... 27
            Internet Policy....................................................................................................................................................... 28
            Transit Benefit (Metrochek) Program Policy................................................................................................... 29
            Review of Library of Congress Regulations................................................................................................... 30




Opposite, The East Doors
Above Right, Detail of carving on the building’s facade; Above Middle, The East Doors; Below Left, Detail from East Doors—
Nabu and Tahmurath, credited with giving the art of writing to the Akkadians and Persians, respectively.
Introduction

The mission of the Office of the Inspector General is to promote
economy, efficiency, and effectiveness by detecting and preventing
waste, fraud, and abuse.

To accomplish our mission, we conduct audits and investigations. Our goals, objectives, strategies, and
performance indicators can be found in our Strategic Plan, available on our Web site at http://www.loc.
gov/about.oig.

In addition to conducting audits and investigations, we lend our expertise on a consulting basis to many
Library offices and external organizations.

Our philosophy is to be proactive rather than audit “after the fact.” We believe this approach results in a
more efficient use of resources by detecting and preventing problems early. Accordingly, we are following
several key projects throughout the Library and rendering assistance and making recommendations as
needed.

Our staff is educated and certified in various disciplines. We are, collectively, four certified public
accountants, three attorneys, two certified internal auditors, one certified information systems auditor,
two special agents, one investigator, one Master of Library Science, and other highly qualified staff.




                                                                               Semiannual Report to the Congress 1
          Audits

        Integrated Support Services                                         FD&C’s Project Management Approach is Unstructured
                                                                            and Undisciplined—FD&C lacked effective internal
        Facility Design & Construction
        Faces Challenges in Providing Service                               controls to help ensure that its goals and objectives are
        Audit Report No. 2006-PA-107                                        met and resources were used efficiently, economically,
        September 2007                                                      and effectively. At the time of our fieldwork, staff were
                                                                            operating without written policies and procedures; as a
        The Library’s Facility Design and Construction Office
                                                                            result, project files were incomplete and inconsistent
        (FD&C) is responsible for planning and designing spaces
                                                                            and lacked adequate documentation. We offered several
        in the Library’s buildings (approximately 4.4 million
                                                                            recommendations, including placing a priority on
        square feet) and providing interior design services.
                                                                            completing the Project Delivery Manual.
        FD&C is a unit of Facility Services, under the direction
        of Integrated Support Services. This audit follows up on
                                                                            Ineffective Coordination with Logistics and Contracts
        our fiscal year (FY) 2002 audit of Facility Services (Report
                                                                            Has Delayed Projects—Since our last audit, FD&C had
        No. 2001-PA-108). In that audit, we found that FD&C
                                                                            improved its communication and coordination with
        needed to improve its timeliness in delivering services and
                                                                            customers, the Architect of the Capitol, and the Safety
        its communication with customers about work requests.
                                                                            Services Office. However, it still needed to improve its
        We also found that Facility Services was not recording
                                                                            coordination with the Contracts Office and Logistics
        important information needed for effective oversight and
                                                                            Services. We recommended improved communication
        sound decision-making regarding the FD&C workforce.
                                                                            and assignment of liaisons with these offices.

        We followed up on those findings and conducted a
                                                                            FD&C’s Centralized Space Planning Role is Unclear—It
        more in-depth examination of FD&C. We found that
                                                                            appeared service units still controlled their assigned space,
        FD&C had not corrected the conditions we identified
                                                                            and FD&C’s role was that of an arbitrator. Centralized
        in 2002; moreover, its ability to provide cost-effective
                                                                            space planning authority is crucial to efficient use of
        and timely service had been adversely affected by high
                                                                            space. We recommended that the Librarian reinforce
        staff turnover, overwhelmed supervisors, and unclear
                                                                            Facility Services’ centralized role in space planning and
        guidance. Supervisors were burdened with hiring
                                                                            design.
        and performing staff functions, leaving little time for
        supervisory responsibilities. Without top management
                                                                            FD&C is Not Effectively Monitoring and Assessing
        accountability, sustained leadership, adequate funding,
                                                                            “FAST” Service Delivery—Facilities Automated Service
        and an effective system to measure results, these long-
                                                                            Tracking (FAST) system service providers were not
        standing problems will continue to erode FD&C’s
                                                                            completing service requests within the time frames
        ability to provide services to its customers. Our
                                                                            requested by their customers. Approximately 62 percent
        specific findings and recommendations were as follows:
                                                                            of requests took more than two weeks to complete.
        FD&C’s Workforce Planning Strategy Has Not Been                     Moreover, FD&C was not effectively monitoring the
        Effective—Facility Services lacked the information to               FAST requests, following up on delays, or assessing overall
        effectively determine FD&C’s staffing requirements and              service delivery. We recommended establishing better
        whether outsourcing some FD&C functions would be                    controls and placing more responsibility on customers
        advantageous. As a result, FD&C’s staff was overwhelmed,            for facilitating prompt service.
        projects were frequently delayed, staff turnover was
        rampant, and continuity of operations was a significant             FAST Contains Misleading Data and Does Not Provide
        problem. We recommended that Facility Services collect              Useful Management Reports—FAST service providers
        information to effectively forecast the staffing resources          were not recording completion dates in a timely manner
        it needs and explore procuring technical expertise.                 and FD&C was not effectively monitoring open work

Opposite: Detail from West door—TAHMURATH, a hero of the ancient Persians                              Semiannual Report to the Congress 3
       requests. Furthermore, FAST lacked useful management          Chief Financial Officer (OCFO) needs to do a better job of
       reporting capabilities. Facility Services management told     educating travelers about regulations regarding submitting
       us that the FAST system is temporary and will be replaced     travel forms in a timely manner and providing accurate
       by the new Computer Aided Facilities Management System        and complete Travel Request and Authorizations (TAs)
       (CAFM) , which is under development. We recommended           and Travel Vouchers (TVs). The program could be further
       that FD&C stress to the service providers the importance      improved by (1) requiring more detail on the TA about a
       of recording the completion date as soon as a job is done.    trip’s purpose and how it benefits the Library, (2) automating
                                                                     processes, (3) using performance measurements, and (4)
       ISS management substantially concurred with our               securing the travel files to protect confidential information.
       recommendations and has already completed or initiated        Our specific findings and recommendations were as follows:


                                                                     OCFO’s Oversight Role Over the Travel Program Needs
                                                                     Strengthening―The travel program needed to change
                                                                     some of its processes. Travelers did not provide sufficient
                                                                     detail on the purpose of travel, nor submit timely TAs and
                                                                     TVs. In many cases, service units rushed the processing
                                                                     of authorizations and vouchers, thus adversely impacting
                                                                     the Travel Office (TO) staff workload. To improve the
                                                                     program, we recommended that OCFO require a detailed
                                                                     purpose for travel and continue monitoring and addressing
                                                                     late authorizations. Further, we found that service units
                                                                     were not timely submitting TVs for reimbursement. In our
                                                                     sample, approximately fifty-three percent were submitted
                                                                     late. In addition, the TO at times did not promptly
                                                                     notify travelers when their vouchers were rejected. We
                                                                     recommended that the TO periodically remind all service
                                                                     units that travelers must submit vouchers within five
       the procurement of technical expertise, development           workdays of their return; redesign the TA form to include
       of a project process, review of alternative furnishings,      a “return to duty station” date; revise the TV processing
       evaluation of services, and is encouraging customer           method so travelers are readily notified when a voucher
       involvement. ISS also provided a time line detailing          is incomplete; and create an improved system to track
       plans for completing all remaining corrective actions.        TV submission so incomplete claims are not lost in the
                                                                     process.
       Office     of     the      Chief     Financial     Officer

       The Library’s Travel Program:
                                                                     The Travel Program’s Efficiency is Compromised by its
       Good Oversight, But Some                                      Manual Processes―The Library did not have an end-to-
       Enhancements Are Needed                                       end integrated travel system. Instead of a streamlined
       Audit Report No. 2006-PA-106                                  process from authorization to reimbursement, the
       September 2007
                                                                     program relied on a combination of manual and electronic
       The Library’s Travel Program is generally well run, but       processes. This can result in errors and inefficiencies. We
       some improvements are needed to strengthen its controls       recommended that OCFO automate the travel processes
       and its efficiency and effectiveness. The Office of the       with consideration given to an e-travel system and use



                                                                Above: Detail of Independence Avenue Door—The man on the left represents
                                                                physical labor, while the woman on the right represents intellectual labor.
4   Semiannual Report to the Congress                           This door was originally designed for the U.S. Copyright Office.
statistical sampling methodology to audit travel claims if       2004, it awarded approximately $14 million in cooperative
an e-travel system is implemented.                               agreements to eight lead institutions (the “leads”). The
                                                                 leads, in turn, awarded grants to sub-awardees to perform
Travel Office Management Needs Performance Measures              parts of the leads’ responsibilities.
to Become More Results Oriented ― TO management had
begun using statistics to analyze the timeliness of TAs and      In this report, our objective was to review the original
TVs, but did not utilize reports to evaluate the program’s       eight NDIIPP leads’ compliance with their cooperative
efficiency and effectiveness. We recommended that the            agreements for FY 2005.
Accounting Operations Officer and the Financial Systems
Officer develop and use performance measurements for             We found that the leads had received unqualified (“clean”)
a results-oriented analysis and evaluation of the Travel         opinions on their single audit reviews for FY 2005, which
Program.                                                         should indicate that they had adequate controls in place
                                                                 to ensure compliance with the agreements’ terms and
The Travel Office is not Ensuring the Security of                conditions.
Confidential Employee Information―The TO did not
lock its files. As a result, unauthorized persons could          Notwithstanding the clean opinions, we found that three
potentially retrieve confidential information from these         of eight leads were not adequately monitoring sub-
unsecured files. We recommended that the TO secure               awardee funds. We also found that OSI needed to include
its files whenever possible during business hours and at         a prior approval procedure in its improved NDIIPP cost-
all other times.                                                 monitoring procedures. Specifically, three of the leads
                                                                 were not adequately reviewing sub-awardee invoices
OCFO agreed with our findings and recommendations,               and had not submitted any prior approvals to the grants
except redesigning the TA form, and efforts are underway         manager or the NDIIPP Agreement Officer’s Technical
to implement our recommendations.                                Representatives.

Office of Strategic Initiatives                                  We recommended that the leads institute procedures to
Lead Institutions Need to Improve
                                                                 monitor sub-awardee costs and OSI include prior approval
Sub-Awardee Cost Monitoring on                                   procedures in the enhanced cost monitoring procedures it
The National Digital Information                                 is currently drafting. Without these procedures in place,
Infrastructure and Preservation Program
                                                                 there is significantly reduced assurance that NDIIPP
Audit Report No. 2007-FN-101                                     funds are being used effectively, efficiently, and for the
September 2007
                                                                 intended purpose.

This report was the second of a two-part review of the
                                                                 OSI agreed with our findings and recommendations.
Library’s National Digital Information Infrastructure
and Preservation Program (NDIIPP). The NDIIPP
was established to develop a national strategy to collect,
archive, and preserve the burgeoning amount of digital
content, especially materials that are created only in digital
formats, for current and future generations. Its strategy
to achieve its goals is to partner with other public and
private institutions. The Office of Strategic Initiatives
(OSI) within the Library administers the NDIIPP. In




                                                                                           Semiannual Report to the Congress 5
       Office of Contracts                                              The Library has taken some steps since the end of FY
                                                                        2004 to address the deficiencies in the contracting
       Service Remains Less Than Satisfactory                           function. Most significantly, it has hired two experienced
       Despite Steps Taken Toward Improvement
                                                                        contracting professionals: one to fill the Chief of Contracts
       Audit Report No. 2007-PA-102                                     position—one of the two critical management vacancies
       September 2007
                                                                        previously cited by OIG—and one to fill the Supervisor
                                                                        of Operations position. Respondents to our survey
       The Library of Congress is charged with a wide range of
                                                                        indicated these officers are having a positive influence
       responsibilities—acquiring items to add to its unique and
                                                                        on the Library’s contracting operations. Additionally,
       priceless collections, providing research and analysis for
                                                                        the Library approved a 2006 request submitted by the
       Congress, and processing copyright claims, among many
                                                                        Chief of Contracts to increase by three the number of
       others. Using contracts to acquire goods and services is a
                                                                        contract specialist full-time equivalent (FTE) positions
       principal way the Library fulfills its mission. On average
                                                                        and is seeking FY 2008 funds to staff these positions.
       over the last couple of years, the Library’s Office of
                                                                        While the steps taken are commendable, they have not
       Contracts has awarded contracts valued at $189 million
                                                                        changed Library organizations’ collective opinion of
       annually.
                                                                                     the office’s service. Overall, our current
                                                                                     survey showed service and infrastructure
       Near the close of FY 2004, we reported that
                                                                                     units continue to be less than satisfied
       several Library organizations were not satisfied
                                                                                     with the contracting service they receive.
       with the quality and timeliness of the Office
                                                                                     Furthermore, work for a substantial portion
       of Contracts’ performance. This unfavorable
                                                                                     of Library contracting transactions is
       opinion was consistent with the findings of a
                                                                                     not being completed within the office’s
       2003 Library-wide survey we had conducted.
                                                                                     established time frames, repeating another
       The 2004 report cited vacancies in two critical
                                                                                     significant finding in our 2004 report.
       management positions, understaffing at
       the contract specialist level, and inadequate
                                                                                      Considering the absence of tangible progress
       staff training as prominent factors adversely
                                                                                      since 2004, additional actions should be taken
       affecting the Library’s contracting operations.
                                                                        to improve the Library’s contracting operations. Most
                                                                        importantly, the Library should:
       This report provided the results of the first part of a
       two-part OIG assessment. For this part, we sought to
                                                                        •	        fund the three additional contract specialist FTEs
       determine whether the quality of the Office of Contracts’
                                                                        that it approved in 2006 for contracting operations;
       operations has improved since our 2004 report. To gauge
       current operational quality, we identified and assessed          •	       establish policies and procedures clearly
       Library actions taken since the end of FY 2004 to address        explaining the Library’s contracting process and the roles
       the office’s deficiencies; surveyed service and infrastructure   and responsibilities of those who participate in it;
       units to collect current views on the office’s service; and
       took a sample of recent contracting activity to assess the       •	       determine the automated data the Office of
       timeliness with which contracting actions are addressed          Contracts needs to evaluate the Library’s contract spending
       and completed. The second part of our assessment will            and manage the Library’s contracting workload; and
       focus on the Library’s technical compliance with the
       Federal Acquisition Regulation.                                  •	      recruit for and select a qualified person to serve
                                                                        as the Director of the Office of Contracts and Grants



                                                                                Above, Detail of West Door—Odin, the Viking-Germanic
6   Semiannual Report to the Congress                                           god of war and creator of the runic alphabet
Management to ensure full accountability for the Library’s      First, according to Library Services, “[t]he single most
contracting function.                                           important milestone for completing an evaluation
                                                                of reading room space is the effect on the Library’s
Weaknesses in the acquisition function could threaten the       programs of the NVE1 … due to open in … 2008.
Library’s ability to timely obtain quality goods and services   With the increase in visitors … we anticipate a rise in
at a fair price. Given the fiscal challenges it is facing,      readership ...” We agreed that the increase in visitors
it is critical that the Library have a highly efficient and     may impact the Main Reading Room’s usage, simply
effective contracting operation to ensure its procurement       by virtue of the fact that visitors may choose to get a
dollars are well spent.                                         better, close-up view. However, in our view, the impact
                                                                on the area studies and special format collections is
Management concurred with our recommendations and,              unlikely to meet expectations. These materials are
in most cases, actions to implement the recommendations         used mostly by dedicated researchers who are aware of
are in progress. Funding was approved to hire six additional    the Library’s vast resources, and not by casual visitors.
contractors and there are plans pending Congressional           Furthermore, the NVE “experience scenarios” in “The
budget approval to hire three permanent employees.              New Visitor’s Experience” booklet envision that visitors
                                                                will turn to the Library’s online resources from their
Library services
                                                                schools, homes, and local libraries.
Follow-up to Audit Report No. 2003-PA-104
Reading Room Space Allocations
Should Be Reevaluated                                           The second argument Library Services offered was
                                                                “…given the overriding need to provide efficient and
Memo dated July 18, 2007
                                                                secure service of the Library’s disparate collections,
Our report, issued in March 2004, made a number of              and specialized and multilingual reference assistance,
recommendations to better utilize reading room space.           there will always be a requirement to have numerous
The Congressional Research Service and Law Library              reading rooms.” We disagreed with the assumption that
have implemented the spirit of our recommendations.             consolidating reading rooms necessarily results in less
Library Services has implemented a system to better             efficient and secure service.
measure reading room usage, however, more than three
years after we issued our report, it has not implemented        Library Services pointed out that each reading room
two critical recommendations: to develop a decision             has a dedicated staff of scholarly experts to provide
model for determining reading room space requirements,          in-depth reference services to patrons and we agreed
and to use the model to make decisions about reading            varied expertise permits the Library to more effectively
room, office space, and storage requirements.                   serve researchers. If the Library Services decision model
                                                                requires consolidating reading rooms, we would expect
As part of the FY 2008 Budget Hearings, Senator
                                                                the consolidated reading room to employ staff from all
Wayne Allard asked the Library to respond to these delays.
                                                                affected disciplines. For example, an Area Studies reading
To its credit, Library Services replied that “plans are
                                                                room consolidating the four current area studies rooms
now underway to enlarge the Performing Arts Reading
                                                                would encompass subject matter experts from all areas.
Room—to date, serving Music Division collections—to
incorporate service of the motion picture and recorded          Library Services stated that “…a majority of the
sound collections of the Motion Picture, Broadcasting &         individual reading rooms are deliberately collocated with
Recorded Sound Division.” However, Library Services             the collections they serve, not only to ensure efficiency
provided two main arguments for further delaying full
implementation. We disagreed with both.                         1	       New Visitor’s Experience.




                                                                                               Semiannual Report to the Congress 7
       of public service, but also to provide maximum security           In a written response to our July 18 memorandum, the
       for Gold and Platinum-level collections.” In our view,            Librarian indicated that Library Services would develop
       not having the materials collocated is unlikely to have           a decision model within 120 days. The OIG recently
       a significant impact on service. The time it takes to             provided guidance to Library Services for developing
       transport an item from the stacks to a reading room is            criteria for the model. We recognize the complexities
       negligible, and the Library’s patrons are well aware of           inherent in any effort to consolidate reading rooms. Past
       the fact that service is not instantaneous. The Asian             proposals for consolidations have met with limited success
       collection is already not collocated with its reading room.       due to both internal and external pressures. We encourage
       Furthermore, the continued growth of the collections              Library management to continue evaluating the utility of
       mandates that, over time, more materials will be stored           these resources.
       off-site. As a result, the time to serve an item will increase,

                                                                         Open World Leadership Center

                                                                         Fiscal Year 2006 Financial Statements

                                                                         The mission of the Open World Leadership Center (the
                                                                         Center) is to enhance understanding between the United
                                                                         States and the countries of Eurasia and the Baltic States.
                                                                         The Open World Program enables emerging leaders from
                                                                         Russia and other Eurasian countries to experience American
                                                                         democracy and civil society in action. Since its founding
                                                                         by the Congress in 1999, the Open World Program has
                                                                         enabled nearly 10,500 current and future leaders from
                                                                         Russia, Ukraine, Lithuania, and Uzbekistan to experience
                                                                         American democracy and civil society, work with their
                                                                         American counterparts, live with American families, and
       irrespective of the collocation of collections and reading        gain new ideas and inspiration for implementing change
       rooms. Regarding the security issues, first, it is our            at home. Today, the Open World Program is the largest
       expectation that researchers are served surrogate copies          U.S.-Russia exchange program and a proven model for
       of gold and platinum level collections whenever feasible,         exchanges for leaders from other Eurasian countries.
       and second, a consolidated reading room having fewer
       points of entry and exit to monitor may well enhance,             The Center is an independent entity in the Legislative
       rather than detract from, the security of the collections.        Branch governed by a board of trustees. Board
                                                                         members consist of members of the Congress and
       In light of the changes in reading room usage over the            private citizens. The congressional leadership appoints
       last several years, we saw no reason why Library Services         congressional members while the Librarian of Congress
       would not develop the decision model we recommended               appoints citizen board members. The Librarian of
       in our report. More than three years has been ample               Congress is currently the Chairman of the Board.
       time to develop an adequate response to our report.




                                                                               Opposite, South Reading Room Reference Desk and Portrait of
                                                                               Thomas Jefferson; Above, Detail of the Jefferson portrait

8   Semiannual Report to the Congress
       Under contract with the OIG, the accounting firm of             in internal control and no reportable noncompliance with
       Kearney & Company audited the Center’s FY 2006                  laws and regulations it tested.
       financial statements and issued its Independent Auditor’s
       Report. The audit included the Center’s balance sheet and       We reviewed the firm’s planning and approach to the audit
       the related statements of net costs, changes in net position,   and significant working papers, evaluated the auditors’
       financing, and budgetary resources for the fiscal year then     qualifications and independence, monitored the progress
       ended. The auditors concluded that the financial statements     of the audit, coordinated meetings with management,
       were presented fairly in all material respects, and in          performed other procedures we deemed necessary, and
       conformity with generally accepted accounting principles.       reviewed and accepted Kearney & Company’s report.
       The firm’s auditors also performed tests of compliance
       with laws and regulations, and considered internal controls
       over financial reporting and compliance. In its audit of the
       Center, Kearney & Company found no material weaknesses




10 Semiannual Report to the Congress                                                                                The South Reading Room
Investigations

During the reporting period we opened 33 and closed 22 investigations. We referred four cases to the U.S. Attorney’s
Office: of those, three were declined and one is pending. We forwarded five cases to Library management for
administrative action. Case and Hotline activity are detailed below:




 Table 1: 	 Investigation Case Activity

                                          Criminal/Civil      Administrative                     Total
 From Prior Reporting Period                    9                      10                          19
 Opened                                         9                     24                           33
 Closed                                        12                     10                           22

 End of Period                                  6                      24                          30




 Table 2: 	Hotline Activity

                                                                             Count
 Allegations received                                                           12
 Referred to management for action                                               5
 Opened as investigations                                                        4
 Closed with no action                                                           3




                                                                                     Semiannual Report to the Congress 11
       Significant Criminal and                                       Loading Dock Security Compromises
       Administrative Investigations
                                                                      During an investigation into the theft of electrical cable
       Hazardous Material Incident                                    we identified two serious security breaches at the Library’s
                                                                      main loading dock. Library regulations require that all
       We reviewed actions taken by Library Services and
                                                                      persons entering or leaving Library buildings pass through
       Integrated Support Services in managing fire safety issues
                                                                      police screening points. We found that in some cases
       related to the relocation and handling of the recently
                                                                      Library employees failed to pass through police inspection
       acquired John E. Allen collection of nitrocellulose film.
                                                                      points upon arrival and departure from the main loading
       Nitrocellulose film is considered a hazardous material. We
                                                                      dock. Library management agreed with our finding
       found that although Library Services provided training
                                                                      and issued a memorandum for agency-wide distribution
       to its staff every two years covering shipping and receipt
                                                                      requiring all persons entering or leaving the main loading
       of nitrate motion picture film, it has no formal, written
                                                                      dock to pass through the police inspection point and sign
       procedures on the proper protocols for handling, storing,
                                                                      a log.
       and transporting this material. We also found that the
       Safety Services Office, which is responsible for developing
       and promulgating safety and environmental health
       directives and procedures, had not posted on its Web site
       policies or procedures for handling hazardous materials
       such as nitrocellulose film. We recommended that Library
       Services coordinate with the Safety Services Office
       or other safety experts to develop appropriate written
       guidance on managing hazardous materials, and that the
       Safety Services Office update the Library’s regulations
       relating to hazardous materials. The Library’s scheduled
       review of the applicable regulations was five years overdue.

       Copyrighted Library Material
       Posted on Internet

       Managers at the Library’s National Library Service for
       the Blind and Physically Handicapped (NLS) notified us
       that a file-sharing Web site had posted copyrighted NLS
       audio books without authorization. NLS limits access
       to these copyrighted materials to members who qualify
       for the NLS Talking Books program. An OIG Special
       Agent identified the administrator of the file-sharing Web
       site and requested that he remove the NLS material from
       the Web site. The administrator immediately removed
       the material and was suspended from the program.




12 Semiannual Report to the Congress
                                                                    fraudulent purchases made with each card. OIG also
                                                                    became aware that the New York Police Department
                                                                    (NYPD) also had an open investigation relating to the
                                                                    compromised credit cards. Working jointly, the OIG and
                                                                    NYPD identified a suspect who was selling the stolen
                                                                    credit card numbers throughout the New York City area.
                                                                    An Assistant U.S. Attorney deferred the matter to New
                                                                    York City prosecutors, and the NYPD is continuing their
                                                                    investigation. Multiple arrests are expected.


                                                                    Unauthorized Surplus Book Sales

                                                                    The Library makes surplus books available to educational
                                                                    institutions, government agencies, and non-profit tax-
                                                                    exempt organizations in the United States having tax-
                                                                    exempt status. A Library patron informed staff in the
                                                                    Anglo-American Acquisitions Division that a large
                                                                    number of books with Library barcodes were being
                                                                    offered for sale at a local bookstore. The bookstore owner
                                                                    identified the source of the books as an individual who
                                                                    participated in the Library’s Surplus Books Program. The
       Travel Card Fraud
                                                                    individual was originally approved to participate in the
       A Copyright Office security manager reported that an         program when working for a participating association but
       employee in Copyright had found unauthorized charges         is no longer employed by that association, and therefore
       on his government travel credit card. Upon further           no longer eligible for the program. The individual will be
       investigation, a total of four Copyright employees who       barred from obtaining books from the Library’s Surplus
       had attended an annual copyright conference in New           Books Program. The U.S. attorney declined to prosecute
       York had noticed fraudulent charges on their credit cards.   the case.
       OIG Special Agents, in coordination with the card issuer,
       discovered the common points of compromise and the




Ezra Winter mural in the South Reading Room                                                   Semiannual Report to the Congress 13
       Follow-up on Investigative Issues
       From Prior Semiannual Reports

       Theft of Copper Tubing at
       The Landover Warehouse

       In our previous semiannual, we reported the theft of
       copper tubing from the Library’s Landover warehouse
       facility and recommended that the Office of Security and
       Emergency Preparedness upgrade malfunctioning security
       equipment and install additional security equipment.
       During this reporting period, the Library implemented our
       recommendations for improving security at the Landover
       facility. The investigation into the theft is continuing.


       Theft from Loading Dock

       We previously reported that a Library employee had
       removed and attempted to sell 2,000 pounds of coaxial
       cable from a Library loading dock. In addition to a court
       approved agreement requiring the employee to perform
       40 hours of community service and serve probation, the
       employee was removed from his Library position during
       this reporting period. He is appealing the termination.


       Ethics/Financial Disclosure


       In the previous period, we reported that the Library’s
       Office of General Counsel (OGC) did not conduct
       substantive conflict of interest reviews for the 2005
       and 2006 Financial Disclosure Statement submissions.           Stone carving of an owl in the South Reading Room

       Specifically, OGC did not review financial disclosure forms
       for any connection between a filer’s financial interests and
       his or her official duties.


       Since our last report, OGC has developed and documented
       a review and certification process comparable to the
       process adopted by the Office of Government Ethics
       (OGE). The process includes a substantive analysis of
       content to determine the existence of conflicts of interest.
       To further enhance and expedite the Library’s review
       process, OGC staff attended the OGE’s 2007 basic and
       advanced training on certifying public financial disclosure
       reports. We commend the OGC’s actions.




14 Semiannual Report to the Congress
           Unimplemented Recommendations
Table 3A: 	Significant Recommendations from Previous Semiannual
           Reports for Which Corrective Action Has Not Been Completed
                          Report No. and
       Subject                                  Service Unit      Rec. No.   Summary And Status of Recommendation
                             Issue Date
Office of the Librarian
                                                                             Revise Library of Congress Regulation (LCR)
                                                 Office of                   2020-7 to allow complainants to use dispute
Dispute                     2002-PA-104
                                                 Workforce          III      resolution during the formal EEO complaint
Resolution Center          September 2003
                                                 Diversity                   process—The OGC is drafting a revised LCR to
                                                                             address this recommendation.
Equal Employment                                 Office of
                             2001-PA-104                                     Evaluate and revise LCR 2010-3.1—The OGC is
Opportunity                                      Workforce           I
                            February 2003                                    drafting a revised LCR.
Complaints Office                                Diversity
                                                                             Mandate a Library-wide succession planning
                                                                             program that endows Human Resources Services
                            2004-PA-105         Office of the                (HRS) with a strong leadership role—In FY 07
Succession Planning                                                 I.1
                            March 2005           Librarian                   HRS created a team to develop a succession
                                                                             planning proposal that would address these
                                                                             recommendations.

Office of the Chief Financial Officer (OCFO)
                                                                             Implement an automated tracking system—A
                                                                             system is in the planning stage and the functional
Management                  2004-PA-106           Strategic
                                                                     II      requirements document is being finalized. The
Control Program             March 2006         Planning Office
                                                                             Strategic Planning Office (SPO) has requested
                                                                             funding for the automation program.
                                                                             Implement a verification review process—The
Management                  2004-PA-106           Strategic                  verification review process is outlined in a
                                                                    III
Control Program             March 2006         Planning Office               proposed LCR which the SPO expects to publish
                                                                             by the end of December 2007.
                                                                             Report implementation delays to the Librarian—
                                                                             The proposed LCR provides for this process.
Management                  2004-PA-106           Strategic                  Once the LCR is implemented, the report to
                                                                     V
Control Program             March 2006         Planning Office               the Librarian will occur once per cycle. OCFO
                                                                             submitted the first report to the Chief Operating
                                                                             Officer on September 28, 2007.
                                                                             The Library should develop a formal plan for
                                                                             implementing Performance-based Budgeting—
                            2004-FN-501            Strategic
Performance-based                                                            The Library has developed building blocks
                           September 2006      Planning Office/      I
Budgeting                                                                    leading to a performance-based budget without
                                                Budget Office
                                                                             a formal plan of action. OIG agreed with this
                                                                             approach and will conduct follow-up reviews.
                                                                             The Library needs a performance management
                                                                             information system—Planning for a system is
Performance-based                                  Strategic                 occurring and certain components of a reporting
                             2004-FN-501
Budgeting                                      Planning Office/     III      system have been implemented through an
                          September 2006
                                                Budget Office                Annual Operations Performance “dashboard.”
                                                                             OIG agreed with this approach and will conduct
                                                                             follow-up reviews.




                                                                                               Semiannual Report to the Congress 15
Table 3A: 	Significant Recommendations from Previous Semiannual
           Reports for Which Corrective Action Has Not Been Completed
                         Report No. and
        Subject                               Service Unit      Rec. No.   Summary And Status of Recommendation
                            Issue Date
                                                                           Coordinate more closely the Workforce
                                                                           Transformation and Workforce Performance
                                                                           Efforts—Library management is coordinating
                                                Strategic                  these efforts under the direction of HRS.
Performance-based          2004-FN-501
                                            Planning Office/      IV       Recently, AFSME 2477 began to transition
Budgeting                 September 2006
                                             Budget Office                 its membership to the Library’s performance
                                                                           management system. OIG will conduct follow-
                                                                           up reviews to monitor the Library’s progress in
                                                                           transitioning remaining staff.
Office of Security and Emergency Preparedness (OSEP)
                                                                           Develop or obtain a threat/risk assessment—
Emergency                  2005-PA-104                                     OSEP is currently soliciting assistance
                                                 OSEP             III
Preparedness Program       March 2006                                      from all Library units to determine Library
                                                                           vulnerabilities.
Library Services
                                                                           Develop a decision model for determining reading
                                                                           room space requirements—The Librarian, in
Utilization of             2003-PA-104
                                             Library Services     II.1     response to our July 18, 2007 memo indicated
Reading Rooms              March 2004
                                                                           that Library Services would develop a decision
                                                                           model within 120 days.
                                                                           Use the decision model to make decisions
                                                                           about reading room, office space, and storage
Utilization of             2003-PA-104
                                             Library Services     II.2     requirements—Library Services will await the
Reading Rooms              March 2004
                                                                           completion of the New Visitor’s Experience prior
                                                                           to addressing this recommendation.
                                                                           Focus Library resources more on materials not
                           2006-PA-104                                     widely held by other libraries—The Library is
Collections
                          December 2006      Library Services     I.1      studying the OIG recommendation and has
Acquisitions Strategy
                                                                           agreed to use the “WorldCat Collection Analysis”
                                                                           tool to identify gaps in the collections.
                                                                           Explore developing collaborative partnerships
                           2006-PA-104
Collections                                                                with other institutions to act as “trusted”
                          December 2006      Library Services     I.2
Acquisitions Strategy                                                      repositories—Library Services is exploring this as
                                                                           part of its Strategic Working Group’s efforts.
                                                                           Reevaluate the Library’s collection policies,
                           2006-PA-104                                     bearing in mind the high costs associated with
Collections
                          December 2006      Library Services     I.3      each acquisition—Given the Library’s goal to
Acquisitions Strategy
                                                                           universally collect, we have decided not to pursue
                                                                           this recommendation.




16 Semiannual Report to the Congress
Table 3A: 	Significant Recommendations from Previous Semiannual
           Reports for Which Corrective Action Has Not Been Completed
                            Report No. and
        Subject                               Service Unit      Rec. No.   Summary And Status of Recommendation
                               Issue Date

                                                                           Review the collections policy statements at least
                              2006-PA-104                                  once every five years—Although the Collection
Collections
                             December 2006   Library Services     II.3     Policy Committee is reviewing policy statements
Acquisitions Strategy
                                                                           for certain areas, it has not implemented a
                                                                           procedure for reviewing all statements.
                                                                           Develop and communicate to recommending
                              2006-PA-104
Collections                                                                officers criteria for recommending activities—
                             December 2006   Library Services    III.1
Acquisitions Strategy                                                      The Strategic Working Group is looking at how
                                                                           to develop and apply consistent standards.
                                                                           Consider expanding recommending officers’
                                                                           authority to deselect materials—The Librarian
                              2006-PA-104
Collections                                                                has expressly forbidden staff to deselect materials
                             December 2006   Library Services    III.3
Acquisitions Strategy                                                      without his written approval. Given the Library’s
                                                                           goal to universally collect, we have decided not to
                                                                           pursue this recommendation.
                              2006-PA-104                                  Consider creating a full-time Digital Subscription
Collections
                             December 2006   Library Services     IV.2     Manager—This recommendation is held pending
Acquisitions Strategy
                                                                           the report from the Strategic Working Group.
                                                                           Reevaluate the policy of maintaining both analog
                              2006-PA-104                                  and digital copies of the same item—Library
Collections
                             December 2006   Library Services     IV.3     Services is reluctant to do this until the life
Acquisitions Strategy
                                                                           expectancy and migration ability of digital media
                                                                           are determined.
Office of Strategic Initiatives (OSI)
                                                                           More Effective Procedures to Monitor Costs are
                              2006-PA-105                                  Needed—OSI does not believe it is responsible
Financial Management
                              March 2007        NDIIPP             I       for implementing such procedures. OIG is
Policies of the NDIIPP
                                                                           currently discussing the recommendation with
                                                                           OSI.
                                                                           OSI Needs to Improve Oversight of NDIIPP
                              2006-PA-105                                  Partners’ Matching Requirements—OSI does not
Financial Management
                              March 2007        NDIIPP             II      believe it is responsible for the oversight called
Policies of the NDIIPP
                                                                           for in our audit. OIG is currently discussing the
                                                                           recommendation with OSI.
                                                                           OSI Needs to Formalize and Fully Implement
                                                                           ­­
                              2006-PA-105
Financial Management                                                       NDIIPP Draft Procedures—OIG has reviewed
                              March 2007        NDIIPP            III
Policies of the NDIIPP                                                     the draft procedures but they have not yet been
                                                                           formally implemented.




                                                                                              Semiannual Report to the Congress 17
        Table 3A: 	Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
                                 Report No. and
               Subject                                Service Unit     Rec. No.    Summary And Status of Recommendation
                                    Issue Date

        Human Resources Services (HRS)
                                                                                   The Library should make its personnel policies
                                                                                   more accessible—To guide it in an effort to
                                                         Human
        Human Resources            2005-AT-902                                     make its policies more accessible, HRS has
                                                        Resources         I.a
        Policies                   March 2007                                      completed the first phase of a study which
                                                         Services
                                                                                   made recommendations for improving the user-
                                                                                   friendliness of its Web page.

                                                                                   The Library should update its personnel
                                                         Human
        Human Resources            2005-AT-902                                     policies—HRS and OGC are currently engaged
                                                        Resources         I.b
        Policies                   March 2007                                      in an effort to revise LCRs which pertain to
                                                         Services
                                                                                   personnel issues.
                                                                                   The Library should adopt a table of
                                                         Human                     penalties—HRS revised LCR 2023-3 to
        Human Resources            2005-AT-902
                                                        Resources        II.b      incorporate the concept of a table of penalties.
        Policies                   March 2007
                                                         Services                  The LCR is in the final stages of the approval
                                                                                   process.
                                                                                   The Library should establish a supervisor’s
                                                         Human                     manual—HRS agreed with the recommendation
        Human Resources            2005-AT-902
                                                        Resources        II.c      and will begin this effort following the
        Policies                   March 2007
                                                         Services                  issuance of the employee manual referred to in
                                                                                   recommendation II.d of the audit report.

                                                         Human                     The Library should establish an employee
        Human Resources            2005-AT-902
                                                        Resources        II.d      manual—HRS expects to have its second draft
        Policies                   March 2007
                                                         Services                  of the manual completed in November 2007.




18 Semiannual Report to the Congress                                  Opposite, Detail of an elevator door in the South Reading Room
       Implemented Recommendations

Table 3B: 	Significant Recommendations from Previous Semiannual Reports
           For Which Corrective Action Was Completed During This Period
                          Report No. and
        Subject                             Service Unit      Rec. No.        Summary of Recommendations and Actions
                             Issue Date

Office of the Librarian
                                                                          Provide training to new supervisors—“Essential
                                              Operations
                           2001-PA-105                                    Supervisory Skills” training was approved by the
Learning at the Library                      Management         I.g
                            April 2003                                    Executive Committee in February 2007, and a pilot
                                             and Training
                                                                          program was introduced in May 2007.

Human Resource Services

                                                                          The Library should better communicate issues affecting
                                               Human
Human Resources            2005-AT-902                                    staff— HRS, in conjunction with OGC, is improving the
                                              Resources         I.c
Policies                   March 2007                                     way it advises staff of the status of LCRs under revision
                                               Services
                                                                          and review.
                                                                          The Library should follow best practices with respect to
                                                                          external hearings—HRS and OGC have implemented
                                               Human                      action that accomplished the intent of two of the three
Human Resources            2005-AT-902
                                              Resources         II.a      actions recommended in this finding. After discussions
Policies                   March 2007
                                               Services                   with Library management, we have decided not to pursue
                                                                          further the recommendation to make PAB decisions
                                                                          binding.

Library Services

                                                                          Establish a methodology to determine which materials
Collections                2006-PA-104                                    are more useful to researchers—Library Services is using
                                           Library Services     II.1
Acquisitions Strategy     December 2006                                   statistics to evaluate usage and the Strategic Working
                                                                          Group is pursuing the issue.
                                                                          More effectively use loan records and vendors’ usage
Collections                2006-PA-104
                                           Library Services     II.2      records of electronic databases and subscriptions—
Acquisitions Strategy     December 2006
                                                                          Implemented.
                                                                          Ensure that recommending officers receive timely
Collections                2006-PA-104
                                           Library Services    III.2      performance evaluations that include their recommending
Acquisitions Strategy     December 2006
                                                                          duties—Implemented.
                                                                          Examine the amount the Library is spending on electronic
                                                                          resources in relation to other research libraries and
Collections                2006-PA-104
                                           Library Services     IV.1      reevaluate whether the Library is successfully serving its
Acquisitions Strategy     December 2006
                                                                          patrons—Library Services has set a goal of spending $2
                                                                          million on electronic resources.




20 Semiannual Report to the Congress
         Funds Questioned or Put to Better Use

Table 4:	Audits with Recommendations for Better Use of Funds
Reports…                                                                            Number          Value
…for which no management decision was made by the start of the period:                -               -

…issued during the period:                                                            -               -
                                                                         Subtotal     -               -
…for which a management decision was made during the reporting period:

         value of recommendations agreed to by management                             -               -

         value of recommendations not agreed to by management                         -               -

…for which no management decision was made by the end of the reporting period:        -               -

…for which no management decision was made within six months of issuance:             -               -



Table 5:	Audits with Questioned Costs
Reports…                                                                            Number          Value

…for which no management decision was made by the start of the period:                -               -
…issued during the period:                                                            -               -
                                                                         Subtotal     -               -
…for which a management decision was made during the reporting period:

           value of recommendations agreed to by management                           -               -

           value of recommendations not agreed to by management                       -               -


…for which no management decision was made by the end of the reporting period:        -               -

…for which no management decision was made within six months of issuance:
                                                                                      -               -




                                                                                      Semiannual Report to the Congress 21
           Instances Where Information or
           Assistance Requests Were Refused
           No information or assistance requests were refused during this period.




           Status of Recommendations
           Without Management Decisions
           During the reporting period there were no recommendations more than six months old without management
           decisions.




           Significant Revised Management Decisions
           During the reporting period there were no significant revised management decisions.



           Significant Management Decisions
           with which OIG Disagrees

           During the reporting period there were no significant disagreements with Library management about decisions on OIG
           recommendations.



           Follow-Up on Prior Period Recommendations
           In this semiannual period, we followed up on all open recommendations from our prior semiannual period. Com-
           ments on the status of individual recommendations appear in table 3A. Recommendations implemented during the
           period appear in table 3B.




Opposite: Detail of an Art deco railing in the staff area                                        Semiannual Report to the Congress 23
       Other Activities

       Comments On The Library’s                                      Office Of The Librarian
       FY 2008-2013 Strategic Plan
                                                                      Review Of The Office Of Workforce Diversity
                                                                      Review Report No. 2007-sp-103
       Our review of the Library’s draft FY 2008-2013 Strategic
                                                                      September 2007
       Plan found it structurally sound as compared to strategic
       planning requirements of the Government Performance
                                                                      This report presented the results of our review of
       and Results Act of 1993 and other best practices. In
                                                                      the Library’s Office of Workforce Diversity (OWD).
       addition to reviewing the structure of the Strategic Plan,
                                                                      Organizationally, the OWD resides within the Office of
       we also analyzed the content of the plan, including its
                                                                      the Librarian and includes the Dispute Resolution Center
       outcomes, strategies, performance indicators, representative
                                                                      (DRC), the Affirmative Action and Special Programs
       measures, and external factors. We expect that the Library
                                                                      Office (AASPO), and the Equal Employment Opportunity
       will continue to revise and enhance performance indicators
                                                                      Complaints Office (EEOCO). We performed this review
       and had no comment on the representative measures
                                                                      at the request of the Library’s Chief Operating Officer to
       because they were only a sample and not comprehensive
                                                                      determine if the OWD is properly organized and staffed,
       at the time.
                                                                      and whether it is functioning effectively.

       In general, we found that the Strategic Plan properly
                                                                      We determined that Library spending for its diversity
       focuses on the delivery of the Library’s products and
                                                                      function is considerably more than the amounts other
       services to its customers. To assure that the Library has
                                                                      agencies spend on corresponding programs. Compared
       effectively considered all relevant issues affecting the
                                                                      with our benchmark agencies, OWD has higher grade
       plan, we recommended presenting the plan for review
                                                                      levels and nearly twice the staff resources per capita.
       and comment to representatives of the Library’s major
                                                                      Other agencies are using collateral duty staff, special
       stakeholders. To adequately measure the plan’s progress,
                                                                      interest groups, ad hoc committees, and “shared neutral”
       in addition to performance indicators and performance
                                                                      programs to increase cost effectiveness.
       measures, we also recommended preparing a statement
       summarizing and assessing the current condition of those
                                                                      Moreover, we found, outside of the EEOCO, that OWD
       elements to be improved by the plan.
                                                                      is overstaffed, over-graded, unable to reliably demonstrate
                                                                      results, not cost effectively aligning its staff resources, and
       In addition to our general comments, we also provided
                                                                      not properly focusing its affirmative action program.
       some guidance on specific goals the Library included in
       its plan. The Library’s Chief Operating Officer responded
                                                                      We also found that neither the DRC nor the AASPO
       to our comments and generally concurred with our
                                                                      collect reliable workload and staff utilization data
       recommendations; however, she suggested that some of
                                                                      and that the AASPO does not analyze its programs
       our more specific comments belonged in documents that
                                                                      for effectiveness.   Other agencies conduct regular
       flowed from the Strategic Plan.
                                                                      systematic workforce and workload analyses, identify
                                                                      and define systemic barriers to equal opportunity, and
                                                                      develop concrete, practical solutions to these problems.


                                                                      The recently appointed OWD director has made some
                                                                      positive changes to the office, but considerably more work
                                                                      needs to be done.




24 Semiannual Report to the Congress
Library services                                              were missing; and one individual had substantial control
                                                              over many parts of the process. Taken as a whole, the
Inspection of the Jakarta overseas Office
Inspection report no. 2007-is-101                             controls present in the Field Office acquisitions section
                                                              did not provide reasonable assurance regarding prevention
July 2007
                                                              or prompt detection of unauthorized acquisition, use, or
We performed an inspection of the Library’s Jakarta,          disposition of assets. We recommended that the Field
Indonesia, Overseas Office (Field Office) in conjunction      Director implement a system of segregation of duties
with Kearney & Company, our independent public                and a three-way match of purchase orders, receiving
accountants.                                                  reports, and vendor invoices. Library Services concurred
                                                              with this finding and recommendation and implemented
The Field Office acquires, catalogs, binds, and ships         corrective action.
materials from ten Southeast Asian nations. In addition to
handling materials for the Library’s collections, the Field   Supervisors Are Not Required to Approve Timesheets
Office also runs the Cooperative Acquisitions Program         —The Field Office did not require a supervisor to
Southeast Asia, a collection of research libraries at major   approve staff time worked. Supervisors approved only
universities in the United States, Canada, Europe, and Asia   leave slips. The computerized time-keeping system in
that use the Library’s Cooperative Acquisitions Program       use at the Field Office allowed employees to swipe their
to purchase materials on their behalf in foreign countries,   ID cards at a single computer upon entry and exit. The
among other functions.                                        Field Director approved the Field Office’s biweekly time
                                                              report; however, he may have been unaware of the times
Internal control is a significant part of the management      each of his 30-some employees came and went. Without
of any well-run organization, including the Field Office.     a supervisor’s signature, there can be no assurance that
Internal control serves as the first line of defense in the   all employee time is completely and accurately recorded.
stewardship of an organization’s assets, and in preventing    As a result, inaccuracies in the time worked can result in
and detecting fraud. Although internal controls in most       a risk of loss to the government. We recommended that
areas of the Field Office appeared to be properly designed    the Field Director issue a directive requiring that section
and functioning as intended, we found that controls over      heads review and approve employee time worked. Library
the acquisition of materials—the bulk of the Field Office’s   Services concurred with this finding and recommendation
business—were improperly designed and not functioning         and implemented corrective action.
as intended. Our specific findings were as follows:
                                                              The Timekeeping System Does Not Require a Password
The Jakarta Overseas Office’s Controls Over Acquisitions      —The office timekeeper operated the timekeeping
Are Inadequate—In a typical purchasing operation, two         system, which aggregates time worked, leave, and other
key principles must be followed: the segregation of duties    elements of time & attendance (T&A). The timekeeper
and the three-way matching of documents. Failure to           used this system to enter and delete employee names,
follow both of these principles creates an environment        enter leave records, and make adjustments to employee
that allows opportunity for error or fraud. The process       time. The system did not require a password for
for ordering, receiving, and approving payment for            access. Without password-controlled access to the
materials at the Field Office was unclear; key controls       time system, it is possible that any individual could




                                                                                        Semiannual Report to the Congress 25
       access the system and make changes to T&A records.            ability to implement an access password, and, if so, require
       Although the timekeeper reviewed the input on a biweekly      the timekeeper to use a password when logging in to the
       basis, there was no guarantee that improper changes to        system. Library Services concurred with this finding and
       T&A records would be discovered. As a result, the             recommendation.
       government was placed at risk of paying excess or incorrect
       wages to its employees. We recommended that the Field
       Director determine if the timekeeping software has the




26 Semiannual Report to the Congress                                                                     Above, Card catalog in the Staff area
 Review of Legislation and Regulations	
Inspector General’s Statement for                              We believe our knowledge of the collections and the
the House Police Merger Hearing                                Library’s collections security program, our sense of
June 26, 2007
                                                               importance and urgency in reacting to thefts of the
                                                               Library’s collections, our proactive work in the area of
We submitted a written statement for the Committee on          collections security, and our ongoing efforts on cold case
House Administration’s June 26, 2007 hearing on merging        files to recover collections items are of significant benefit
the Library’s police force with the U.S. Capitol Police        to the Library’s collections security program.
(USCP). The statement addressed two considerations
for the Congress on collections security when preparing        USCP jurisdiction is too limited to react to needed
implementing language for the pending merger. The              searches and arrests outside of Capitol Hill. OIG Special
considerations are relevant not only when the merger           Agents have law enforcement authority through special
occurs, but also currently, because a USCP Inspector is        deputation from the U.S. Marshals Service. OIG Agents
overseeing Library police operations and USCP officers         use this nationwide authority to expeditiously obtain
work alongside Library officers.                               and execute search warrants when needed. Having to
                                                               work through local law enforcement agencies can slow
The first consideration stated that the Librarian              the process down considerably and make a significant
should retain exclusive authority and responsibility for       difference in the success rate of theft recoveries.
establishing policy, procedures, and priorities for securing
the collections, including physical storage and access         Our concerns were raised by the Committee Chairman
controls. Defining language is needed to clarify potentially   during the hearing. The USCP Chief assured the
overlapping USCP collections security responsibilities         Committee that our jurisdictional concerns could be
contained in 2 USC 1901.                                       resolved. We are working cooperatively with the USCP
                                                               and the USCP OIG on a memorandum of understanding
Second, implementing language should be clear about            to address jurisdictional issues, and we are confident of a
investigations concerning the Library’s collections. The       mutually agreeable result.
USCP also conducts investigations, and its jurisdiction
is broad. Attempts by the OIG to discuss with USCP             Proposed IG Act Amendments
potentially overlapping jurisdiction with the OIG have not
been successful, and investigations could be jeopardized       As reported in our March 2007 Semiannual Report to
if responsibilities are not clear.                             the Congress, we began in late 2006 to attend Executive
                                                               Council on Integrity and Efficiency (ECIE) meetings.
The Library of Congress Inspector General Act of 2005,         The ECIE is a consortium of statutory executive branch
2 USC 185, establishes responsibility for this office to       inspectors general (IGs) appointed by the agency heads.
“conduct and supervise audits and investigations (except       The ECIE has the same purpose as the Presidents Council
incidents involving violence and personal property)            on Integrity and Efficiency (PCIE), which is composed
relating to the Library of Congress.” We believe thefts        of IGs nominated by the President and confirmed by the
of Library property (including the collections) fall under     United States Senate.
OIG jurisdiction. The USCP has responsibility for exit
inspections and would be the first responder to attempted      ECIE and PCIE IGs derive their authority from the
thefts. There needs to be agreement as to which party          Inspector General Act of 1978, as amended. The three
would conduct investigations related to such matters.          legislative branch statutory IGs at the U.S. Capitol Police,




                                                                                          Semiannual Report to the Congress 27
                                Government Printing Office,           The legislative branch IGs were invited to meet with
                                and Library of Congress derive        Congressman Cooper to express views on his bill and its
                                their authority from individual       applicability to the legislative branch IGs. We generally
                                IG acts unique to their               agreed with the bill’s amendments. The Cooper Bill passed
                                individual agencies, but also         the House this summer, but most of the bill’s provisions
                                include by reference many of          are not applicable to legislative branch statutory IGs. We
                                the fundamental provisions of         will report on future developments that may result in
                                the 1978 act.                         amending the 1978 act, or the individual legislative branch
                                                                      IG acts.
                                 During the semiannual period,
                                 our office participated in ECIE
                                                                      Internet Policy
                                 commentary on three separate
                                 proposed amendments to the
                                                                      Our review of the Library’s Internet usage policy found
       1978 act: H.R. 928, the “Cooper Bill;” S. 680, the “Collins
                                                                      it deficient. Specifically, we do not believe that the policy
       Bill;” and S. 1723, the “McCaskill Bill.” Although
                                                                      adequately prohibits access to sexually explicit material
       differing in their particulars, the three bills collectively
                                                                      and certain types of non-business related Web sites such
       amend the 1978 act to provide for more independence
                                                                      as gaming and auction sites, and other activity not related
       and accountability for federal statutory IGs. Subjects
                                                                      to official Library duties.
       addressed in these bills include:
       •	       providing advance notice of removal of the IG         The Library responded that only a few such incidents
                to Congress,                                          have been processed for administrative action, and have
       •	       establishing terms of office for IGs,                 been successfully handled under existing policy. There is
       •	       requiring independent counsels,                       evidence, however, that this activity may be occurring at
       •	       allowing direct submission of budgets,                a much higher rate than indicated by the administrative
       •	       establishing a joint Council,                         proceedings. Besides the obvious loss of productivity
       •	       imposing minimum qualifications,                      from this behavior, we believe there is also a significant
       •	       establishing offices as discrete agencies,            potential for viruses and other threats infiltrating the
       •	       fixing pay levels,                                    Library’s networks, and the risk of allegations of a hostile
       •	       eliminating bonuses,                                  work environment resulting from the Library’s failure to
       •	       clarifying subpoena power,                            prohibit its staff from exposing fellow staff members to
       •	       statutory law enforcement authority,                  sexually explicit materials.
       •	       making applicable the Program Fraud Civil
                Remedies Act,                                         We recommended strengthening existing Library
       •	       including inspection and evaluation products in       regulations to clearly prohibit inappropriate conduct using
                semiannual reports, and                               government resources on government time. We are also
       •	       requiring report postings on Web sites.               working with the Library to explore options and related
                                                                      costs of blocking access to prohibited sites.
       The House Committee on Oversight and Government
       Reform, Subcommittee on Government Management,
       Organization, and Procurement held hearings in June;
       and the Senate Homeland Security and Governmental
       Affairs Committee in July to discuss issues contained in
       the draft bills.



28 Semiannual Report to the Congress
           Transit Benefit (Metrochek)
           Program Policy

           After receiving a complaint, we reviewed alleged
           inconsistent advice by OGC concerning the Library’s
           Transit Benefit Program policy. One OGC legal
           opinion stated that it was “illegal and criminal” to
           participate in both the Library Parking Program and the
           Metrochek Program at the same time. Another OGC
           opinion advised that as a general rule, the Metrochek
           program is available only to those employees who do
           not have a parking permit, but Metrochek benefits may
           be distributed pro rata when an employee occasionally
           utilizes parking services.


           We recommended the Library finalize its Metrochek
           policy and specifically address the issues raised by the
           complainant. OGC responded that the determination
           of when simultaneous participation is permissible must
           be made on a case-by-case analysis. We suggested it is
           possible to craft language that would clarify situations
           making staff eligible to receive both benefits.




Above opposite, Detail of a wall decoration, Above Right, Full wall panel   Semiannual Report to the Congress 29
        Table 6:        Review of Library of Congress Regulations
                   LCR Reviewed                           Comments by the Office of The Inspector General

                                            We commented that the regulation refers to a Sign Manual. The Library does not
        LCR 1820
                                            have a Sign Manual. We also commented that the regulation refers to an obsolete
        Informational Signs
                                            form.

                                            We commented that the regulation should state that federal law requires the Office
        LCR 2010-9
                                            of Personnel Management to factor in a penalty for employees who elect to convert
        Part-time Career Employment
                                            to part-time employment at the end of a career.

        LCR 2010-10
                                            We commented that the regulation does not include definitions of excepted service
        Position Terminology in
                                            appointments, conditional appointments, and senior-level executive appointments.
        the Library of Congress

                                            We commented that the Library should consider retaining an outside professional
        LCR 2020-3
                                            editor to make the regulation easier to understand. We also commented that the
        Policies and procedures
                                            regulation incorrectly implies that the Library has recent case files that shows it has
        Governing Adverse Actions
                                            removed employees for safety violations such as driving a vehicle without a license.

        LCR 2022-2
        Recognized Employee
        Organizations Concerned with
                                            We commented that the regulation cites an obsolete form.
        Welfare, Financial Assistance,
        Recreational, Cultural, or
        Professional Activities




30 Semiannual Report to the Congress                                                                      Opposite: Independence Avenue Entrance
                                                       Inspector General
                  Counsel to the IG                    Karl W. Schornagel
               Judith K. Leader, Esq.                  CPA                                   Administrative officer
               (part-time)                                                                   Tara Ann Logan




                    Assistant Inspector                                                  Assistant Inspector
                    General for audits                                                   General for Investigations
                    Nicholas G. Christopher                                              Kenneth R. Keeler
                    Esq., CPA




Senior Auditor                                Senior Auditor                Special Agent                     Special Agent
John W. Kane                                  Patrick J. Cunningham         Pamela D. Hawe                    Donya M. Jackson
                                              CIA                           (Part-time)                       (Part-time)




Senior Auditor                                Senior Auditor                Management                        Investigator
Judy M. Fischer                               John R. Mech                  Analyst                           Barbara A. Hennix
CISA, CIA                                     CPA                           Michael R. Peters




Auditor                                       IT Specialist
Cornelia E. Jones                             Lawrence Olmsted




Auditor                                       Auditor
Sherry D. Angwafo                             Mary A. Harmison
Esq.                                          CPA




Auditor                                       Auditor
Vacant                                        Vacant
         Inspector General Hotline



    Help
     elp Promote
              te Integrity,
                 I      ty, Economy,
                            E    my, a
                                     and Efficiency
                                         Efficie

     t Suspected
Report Suspe
       Su      d Fraud, Waste, Abuse, or
                                      o Mism
                                         Mismanagem
                                         Mismanagement

         Complaintss May
                     Ma be Made
                             de Anonymously
                                Anonymous
                                A




                    Inspector
                        ector General
                       pector Gen   l
                   Library
                   Lib        Congress
                     brary of Co
                              Congre
                                ngr
                                  ress
              101
               01 Independence
              10  In
                  Inde
                     epen
                     ependence
                        n e    Avenue,
                               Aven
                               Av nue,, S.E.
                           LM-630

              Washington,
              Wash
               ashin
                 hingto , DC 20540-1060
                   ngton,    205
                             20 40
                                 40-1
                                   -1060
                                       0




       Main
       Mai
         in Telephone
            Telephone N
                      Num
                      Number:
                        mbbe
                           er      (202)
                                      2 707-6314
                                     02) 707 31
                                              14

                  Fax N
                  Fa
                  Fax Numbe
                        umber:
                        u
                      Number:      (202)
                                    2 2) 707-6032
                                   (2    707-603
                                         70
                                          077-6
                                              60

      ot ne T
     Hotline              ber:
             Telephone Number:     (202) 707-6306
                                             6306

                H         mail
                Hotline E-mail:    oighotline@loc.gov
                                   o     lin    c.g v

                      P .O. Box:   15051
                                   150   S.E.. Station
                                               Sta
                                   Washington,
                                   Washi          DC 20003



    Any information you provide will be held in confidence.
  However, providing your name and a means of communicating
       with you may enhance our ability to investigate.
